                          U.S. Department of Agriculture

                             Office of Inspector General
                                        Northeast Region




         Management Oversight of Federal
    Employees’ Compensation Act Operations
     within the U.S. Department of Agriculture



`




                                  Report No. 50601-2-Hy
                                           August 2005
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20250




September 12, 2005


REPLY TO
ATTN OF:      50601-2-Hy

TO:           John Surina
              Deputy Assistant Secretary
                for Administration

ATTN:         Arthur Goldman
              Audit Liaison

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Management Oversight of Federal Employees’ Compensation Act
              Operations within the U.S. Department of Agriculture


This report presents the results of the Office of Inspector General’s (OIG) audit of
Federal Employees’ Compensation Act (FECA) operations within the Department of
Agriculture (Department). The objectives of the review were to assess (1) whether the
Department is administering FECA operations in accordance with the President’s Safety,
Health and Return-to-Employment (SHARE) initiative enacted January 9, 2004; the
U.S. Department of Labor (DOL) regulations, policies, and procedures; and Departmental
Regulation (DR) 4430-3, Workers’ Compensation Program, dated January 8, 2001, and
(2) whether various Departmental agencies are complying with requirements established
in DR 4430-3. While the FECA is primarily administered by the DOL, we found the
Department’s limited responsibilities have been performed in general compliance with
DOL policies and procedures and the President’s SHARE initiative. We did note that DR
4430-3 contains requirements above and beyond those in the President’s SHARE
initiative. Additionally, the daily use of telecommunications and e-mail provides useful
data, but does not eliminate the need for quarterly reports required by DR 4430-3. Also,
more frequent use of various e-Gov initiatives, to include e-mails, faxes, and overnight
delivery services, could expedite the filing of claims with DOL.

Our findings and recommended corrective actions are presented under the Audit Results
section of this report. Also under this section are excerpts from the Department’s
response to the draft report and OIG’s position.
John Surina                                                                                 2



BACKGROUND

The FECA as amended, 5 U.S.C. 8101 et seq., provides benefits to civilian employees of
the United States for disability due to personal injury or disease sustained while in the
performance of duty. The FECA provides for payment of several types of benefits,
including compensation for wage loss, schedule awards, and medical and vocational
rehabilitation services. In addition, the FECA provides compensation benefits to
qualifying dependents in the event a work-related injury or disease causes an employee’s
death. The DOL has primary responsibility for the FECA and is responsible for
adjudicating new claims for benefits, managing ongoing cases, paying medical expenses
and compensation benefits to injured employees and survivors, and assisting injured
employees’ return to work. DOL regulations for the FECA are contained in Title 20,
Code of Federal Regulations, and parts 1 through 25.

According to DOL Publication CA-810, revised January 1999, Federal departments are
encouraged to actively manage FECA operations. This publication provides that the
departments are primarily responsible for submitting claim forms, retaining records
supporting the claims accepted, and annually accounting for claims costs charged back to
the departments by the DOL.

On January 8, 2001, the Department issued DR 4430-3 to establish policy for providing
compensation and benefits to employees who sustain traumatic injury or occupational
condition while in the performance of duty. This regulation included a requirement that
the Department conduct periodic reviews of agency FECA operations to ensure
compliance with applicable Federal and Departmental regulations and guidelines. It also
requires agencies to report quarterly to the Department on actions taken on DOL
quarterly reports of FECA activities. In addition, the regulation requires agencies to
report annually (July 1 through June 30) to the Department on rehire and return-to-work,
long-term disability case management, and program cost activity and results. This
regulation was issued, in part, as a response to our prior audit of FECA activities issued
in August 1999. 1

Since 1999, two Presidential initiatives have been enacted to improve workplace safety
and health and reduce costs of injury. The “Federal Worker 2000” initiative was signed
on July 2, 1999. The SHARE initiative that replaced it was signed on January 9, 2004,
and became effective for fiscal years (FY) 2004 through 2006. The Secretary of Labor
issued a memorandum to the heads of the executive departments and agencies on January
15, 2004, explaining the four goals set by the President. The goals included (1) reducing
the total case rate for injuries and illnesses, (2) reducing case rates for lost time injuries
and illnesses, (3) increasing the timeliness of filing notices of injury and illness, and
(4) reducing the rate of lost production days due to injuries and illnesses. By January 30,
2004, each agency was to respond to the DOL citing its goals for each of the next three
fiscal years. The Department responded setting program goals that reflect a 3 percent
reduction in total and lost time injury cases, a 1 percent reduction in lost time production
1
    Audit Report No. 50099-9-At, Control of Workers’ Compensation Cost
John Surina                                                                               3


days, and a 5 percent increase in timely filing of claims. This was in accord with the
requirements of the Secretary of Labor’s memorandum. The Department and its agencies
were required to operate according to requirements in the SHARE initiative, work with
the DOL, and report on accomplishments after the end of FY 2004.

According to the Department Annual Report on Occupational Safety and Health,
FY 2003, the Department was charged-back $72,269,808 for FECA costs by the DOL
and directly incurred continuation of pay costs of $2,946,876. For FY 2003, the
Department reported 1,873 lost time injuries, 2,539 no lost time injuries, and 7 fatalities.

AUDIT OBJECTIVES

Our objectives were to determine whether (1) the Department is administering FECA
operations in accordance with the SHARE initiative; DOL regulations, policies, and
procedures; and DR 4430-3; and (2) Departmental agencies are complying with reporting
requirements established in DR 4430-3.

SCOPE AND METHODOLOGY

To accomplish the audit objectives, we reviewed Federal laws and regulations; DOL
publications; prior OIG audits; Presidential initiatives; and Departmental regulations
policies, and procedures governing FECA operations. We interviewed Departmental
officials within the Office of the Assistant Secretary for Administration’s mission area
and reviewed the FECA records these Departmental level officials maintained, including
annual reports to the DOL under the Federal Worker 2000 initiative. Since the SHARE
initiative was enacted in January 2004, our review of SHARE operations was limited to
reviewing the goal setting and implementation of training to accomplish the goals. No
report of SHARE initiative accomplishments had been prepared as of the end of our
fieldwork. Since the agencies did not file quarterly reports on FECA operations required
by DR 4430-3, we interviewed Departmental and agency officials to assess why the
reports had not been filed.

At the agency level, we interviewed Animal and Plant Health Inspection Service
(APHIS) and Agricultural Research Service (ARS) officials responsible for day-to-day
FECA activities and quarterly reporting within their respective agencies. We selected
these agencies for review because their records were maintained within the local area. We
also reviewed 21 FECA cases to obtain an understanding of the processes employed by
the agencies to manage activities. We did not assess the propriety of agency decisions
about specific cases.

The audit work was performed at Department Headquarters in Washington, D.C., and
APHIS and ARS offices in Riverdale and Beltsville, Maryland, respectively. We also
reviewed the DOL’s official website information regarding the Department’s timeliness
of filing claim forms but did not independently validate the DOL statistics. The audit
covered Departmental operations from October 2001 through July 2004. Audit work was
John Surina                                                                             4


performed between April and July 2004. We conducted this audit in accordance with
Generally Accepted Government Auditing Standards.
AUDIT RESULTS

The Department’s limited responsibilities for FECA operations were performed in
general compliance with DOL regulations, policies, and procedures; and Presidential
initiative requirements. However, the Department has not conducted periodic reviews of
agency FECA operations and the agencies have not reported quarterly to the Department
in accordance with DR 4430-3. We did not identify any specific negative effects resulting
from this noncompliance, in part, because telecommunication, e-mail, faxing, and general
daily communication have provided much of the data needed to manage Departmental
FECA operations. However, without the periodic agency reviews and agency reports
required by the Departmental Regulation, the Department runs a risk that future problems
may not be discovered and corrected timely. We identified two areas where additional
action could strengthen the Department’s operations with respect to workers’
compensation.

Finding 1 – The Department and Its Agencies Are Not In Strict Compliance with
             DR 4430-3

The Department and its agencies were not in strict compliance with DR 4430-3
requirements that call for periodic Departmental reviews of agency compliance with
Federal and Departmental requirements and periodic reporting by agencies on various
FECA activities. The noncompliance came about because Departmental employees relied
on informal communications from the agencies and the annual OSHA Report to Congress
on Federal Agency Occupational Safety and Health Programs and did not hold agencies
accountable for strict compliance with provisions of the Departmental Regulation. The
Presidential Initiatives had different periodic reporting requirements and the agencies
changed their practices to comply with the new requirements. Nevertheless, the existing
requirements in the Departmental Regulation remain in effect. Department officials told
us that there is still a need for agency level analysis, program emphasis, and agency head
awareness, and that periodic review and agency level reporting should still occur. We did
not identify any adverse effect from the absence of periodic reporting, primarily because
Department and agency officials generally obtained much of the basic data needed to
manage the program through electronic means.

Recommendation 1:

Develop and implement a schedule for performing Departmental reviews of agency
compliance with Federal and Departmental requirements. Include in the reviews an
assessment of whether agencies have filed required reports and recommendations to
ensure future compliance with requirements for quarterly reporting.
John Surina                                                                             5




Departmental Response:

Concur. This office will continue to follow the schedule for conducting program reviews
as stated in Appendix to DR 4430-3 (as part of a Personnel Management Evaluation,
when deemed necessary by the Safety, Health and Welfare Division (SHEWD), or at the
request of an agency). In addition, we will initiate followup procedures to ensure receipt
of required reports. The determination of when an agency program review is necessary
will be based in part on our periodic review of agency adherence to the reporting
requirements of DR 4430-3. Non-adherence to these requirements will be cause for
further examination of an agency’s program which in some cases may identify the need
for an SHEWD program review.

OIG Position:

The Departmental response states that the schedule for conducting program reviews as set
forth in the Appendix to DR 4430-3 will continue (emphasis added) to be followed;
however, we noted that Departmental officials considered themselves to be in technical
compliance with the Appendix even though no reviews had actually been conducted. In
their view, expressed orally at the exit conference, compliance with the Appendix was
achieved because reviews were to be performed under one of three listed conditions and
none of the listed conditions had occurred. That is reviews were to be conducted (1) as
part of a Personnel Management Evaluation; (2) when deemed necessary by the SHEWD
or (3) at the request of an agency. However, because (1) no Personnel Management
Evaluations had been conducted; (2) SHEWD did not see a need for a review; and (3) no
agency specifically requested a review, Departmental officials asserted compliance with
the review requirements, even though no reviews had been performed.

To reach management decision for this recommendation, please provide the planned date
for implementation of the followup procedures, and for review of agency adherence to
reporting requirements.

Finding 2 - FECA Claim Forms Are Not Timely Filed With The DOL

The agencies are not timely filing the form CA-1, Federal Employee’s Notice of
Traumatic Injury and Claim for Continuation of Pay/Compensation, and the form CA-2,
Notice of Occupational Disease and Claim for Compensation. DOL requires that
agencies file within 10 working days of receipt from the injured employee. However,
according to DOL’s official website, only 29.1 percent of the claim forms were filed
within the 10-day limit during FY 2003. As a result, employees are not always being
timely served, delays may increase compensation costs, and the Department’s
performance is subject to criticism.
John Surina                                                                                6


DR 4430-3 states that claims are to be filed within 10 working days. The DR did not
establish a Department-wide control to monitor timely filing of claims. The DOL
monitors this and reports to the Department. Various Department officials explained that
it takes time for the supervisor to review the claim filed for completeness and accuracy,
work with the employee on discrepancies found, and obtain needed codes for occupation,
injury type, etc. The delay is often compounded if the employee and supervisor are not
located in the same office or locale, and use of the U.S. Postal Service often creates
delays. Further, since original signatures are required by DOL Publication CA-810, faxes
have not been used.

In its response to the President’s SHARE initiative, the Department has set an annual
goal to increase timely filing for each of the 3 years of the initiative. According to this
initiative, by the end of FY 2006, the timeliness rate should exceed 33.7 percent, as
compared to the FY 2003 rate of 29.1 per cent. The Department is achieving the SHARE
initiative goal, and reached a reported timeliness rate of 34.5 percent at the end of
FY 2004. However, while the Department has taken action to improve timeliness
including notifying the agencies of the goals and discussing timely filing during training
sessions, additional effort, to include more extensive use of electronic processes to
facilitate completion of forms (e.g., drop down menus that include necessary coding),
electronic signatures, e-mail, and overnight delivery services, is needed to ensure
achievement of the Department’s own objective of ensuring that all claims are filed
within 10 working days, as set forth in DR 4430-3.

Recommendation 2:

Explore use of various electronic processes, to include E-Authentication, E-Forms, use of
faxes to transmit non-signature forms, overnight delivery services, and implement
additional procedures to support more rapid filing of claims, in compliance with the
provisions of DR 4430-3.

Departmental Response:

Concur. We will expand our efforts to support more rapid filing of claims, particularly
through the widest possible implementation of the electronic claims transmission aspect
of the Forest Service’s Safety, Health and Information Portal System.

OIG Position:

To achieve management decision for this recommendation, please provide additional
detail about planned efforts to support more rapid filing of claims, to include clarification
of whether the Forest Service’s Safety, Health and Information Portal System will be
used throughout the Department and the dates when planned actions will occur.

The Department’s complete response, dated July 8, 2005, is included as Attachment A.

Based on the response, management decision has not been reached for Recommendations
1 and 2. The information needed to reach management decision is set forth in the OIG
John Surina                                                                            7


Position section after each recommendation. In accordance with DR 1720-1, please
furnish a reply within 60 days describing the correction actions taken or planned and the
timeframes for implementation for the recommendations for which management
decisions have not been reached. Please note that the regulation requires a management
decision to be reached for all recommendations within a maximum of 6 months from the
date of report issuance. Final action on management decisions should be completed
within 1 year of the date of management decision to preclude listing in the Department’s
annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to our staff during this review.
Please contact Regional Inspector General, Rebecca Anne Batts, at (301) 504-2100, if
you have further questions or need additional information.

Attachment


OIG:AFD:720-1918:0907/05:Users:bdhill file:Wpdata:JMoore folder:50601-2-Hy
FOLDER:FECAFinal Report-bbrevised8-30_.2doc:FINAL 9/9/05

Orig._______DD______DAIG/A______
ATTACHMENT – A
